Report No. D-2008-121       August 18, 2008




              Internal Controls
         for Air Force General Fund
      Cash and Other Monetary Assets
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
AFAA                          Air Force Audit Agency
CAR                           Cash Authority Request
COMA                          Cash and Other Monetary Assets
CONUS                         Continental United States
DFAS                          Defense Finance and Accounting Service
DO                            Disbursing Officer
DoD FMR                       DoD Financial Management Regulation 7000.14-R
DoD IG                        Department of Defense Inspector General
DSSN                          Disbursing Station Symbol Number
EFT                           Electronic Funds Transfer
OCONUS                        Outside the Continental United States
OMB                           Office of Management and Budget
SOA                           Statement of Accountability
                                       INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                       400 ARMY NAVY DRIVE
                                  ARLINGTON, VIRGINIA 22202-4704



                                                                                  August 18, 2008

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE


SUBJECT: Repolt on Internal Controls for Air Force General Fund Cash and Other Monetary
         Assets (RepOit No. D-2008-121)

We are providing this report for review and comment. We considered comments from the
Defense Finance and Accounting Service Denver Director when preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The comments
from the Defense Finance and Accounting Service Denver Director were fully responsive.
However, we did not receive management comments from the Assistant Secretary of the Air Force
(Financial Management and Comptroller). Therefore, we request additional comments on
Recommendations C.I.a. and C.I.b. by September 18, 2008.

Please provide comments that conform to the requirements of DoD Directive 7650.3. If possible,
send management connnents in electronic format (Adobe Acrobat file only) to
AUDDFS@dodig.mil. Copies of the management comments must have the actual signature of the
authorizing official for your organization. We are unable to accept the / Signed / symbol in place
of the actual signature. If you arrange to send classified comments electronically, you must send
them over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to our staff. Please direct questions to Ms. Amy J. Frontz at
(303) 676-7392 or Mr. M. James Herbie at (303) 676-3280. If you desire, we will provide a
fonnal briefing on the results.




                                    !~D.;r;~
                                    Patricia A. Marsh, CPA
                                  Assistant Inspector General
                               Defense Financial Auditing Service
                     Report No. D-2008-121 (Project No. D2007-D000FD-0145.000)
                                          August 18, 2008

                Results in Brief: Internal Controls for Air
                Force General Fund Cash and Other
                Monetary Assets

What We Did                                                What We Recommend
Our objective was to determine whether internal            We recommend that the Air Force require base
controls were effectively designed and operating           comptrollers to review and approve local cash
to adequately safeguard, account for, and report           authority requests. In addition, we recommend
Air Force General Fund Cash and Other                      that the disbursing officer at Defense Finance
Monetary Assets.                                           and Accounting Service Denver improve
                                                           compliance with existing policies and
                                                           procedures for monitoring and minimizing cash
What We Found                                              held outside of the U.S. Treasury by the Air
                                                           Force.
Physical controls for safeguarding Cash and
Other Monetary Assets were effective. Air
Force financial managers and Defense Finance               Client Comments and Our
and Accounting Service personnel have                      Response
designed effective internal controls. However,
there are deficiencies in the application of those         The Director, Defense Finance and Accounting
controls. Until Air Force corrects these                   Service concurred with our recommendations.
deficiencies, it cannot ensure that cash held              Existing cash authority request policies and
outside of the U.S. Treasury is justified or that it       procedures were updated. The Disbursing
properly accounts for and reports Cash and                 Officer, Defense Finance and Accounting
Other Monetary Asset balances. Specifically:               Service Denver, issued written instructions
    • The Air Force deputy disbursing officer              stating that cash authority requests without
        responsible for the Japan custody                  complete supporting documentation would not
        account allowed a material reporting               be approved. The improved policies and
        error to occur and remain undetected.              procedures will help limit the amount of cash
        As a result, the deputy disbursing officer         held outside the U.S. Treasury. The Director’s
        understated Cash and Other Monetary                comments were fully responsive to our
        Assets by $9.8 million on the date of our          recommendations.
        visit. When informed, the disbursing
        officer at Defense Finance and                     The Assistant Secretary of the Air Force
        Accounting Service Denver took                     (Financial Management and Comptroller) did
        immediate action and corrected the                 not provide management comments on the draft
        internal control weakness.                         report; therefore we request management
    • Defense Finance and Accounting                       comments in response to the final report.
        Service Denver accountants improperly
        classified certain amounts as Cash and
        Other Monetary Assets, creating an
        overstatement of $6.4 million in the Air
        Force General Fund Balance Sheet as of
        September 30, 2007.
    • The Air Force is not effectively applying
        existing internal controls to prevent
        excess cash on hand. Reducing the level
        of cash on hand at one Air Force base
        we visited could annually save as much
        as $320,000 in borrowing costs.

                                                       i
              Report No. D-2008-121 (Project No. D2007-D000FD-0145.000)
                                   August 18, 2008

Recommendations Table
Client                            Recommendations          No Additional Comments
                                  Requiring Comment        Required
Assistant Secretary of the Air    C.1.a., and C.1.b.
Force (Financial Management and
Comptroller)
Director, Defense Finance and                              C.2.a., and C.2.b.
Accounting Service Denver

Please provide comments by September 18, 2008.




                                           ii
Table of Contents

Results in Brief                                                        i

Introduction                                                            1

       Objective                                                       1
       Background                                                      1

Finding A. Internal Controls for Reporting the Japan Custody Account    3

       Client Actions                                                   5

Finding B. Financial Reporting of Cash and Other Monetary Assets        7

       Recommendation                                                   9

Finding C. Internal Controls to Minimize Cash Held Outside             11
             the U.S. Treasury

       Recommendations, Client Comments, and Our Response              14

Appendices

       A. Scope and Methodology                                        17
              Review of Internal Controls                              18
       B. Prior Coverage                                               19
       C. Cash and Other Monetary Assets Operating Procedures          21
       D. Glossary of Terms                                            23


Client Comments

       Defense Finance and Accounting Service                          27
Introduction
Objective
Our objective was to determine whether internal controls were designed and operating to
effectively safeguard, account for, and report Air Force General Fund Cash and Other
Monetary Assets (COMA). See Appendix A for a discussion of the scope and
methodology. See Appendix B for references to prior audit coverage directly related to
our audit objective.


Background
Congress has authorized the Department of Defense to make disbursements on its own
behalf. The Treasury establishes expenditure accounts for funds appropriated by
Congress. Appointed disbursing officers, as agents of the Treasury, perform DoD
disbursing functions using assigned Treasury checking accounts which are identified by
Disbursing Station Symbol Number (DSSN). The Disbursing Officer (DO) at the
Defense Finance and Accounting Service (DFAS) Denver and the DO at the Office of the
Assistant Secretary of the Air Force for Financial Management are accountable for all
COMA held by the Air Force.

The Air Force conducts operations throughout the world. The Defense Finance and
Accounting Service disbursing offices, as well as finance offices on Air Force
installations, make Air Force collections and disbursements. The DFAS Denver DO
appoints deputy disbursing officers to enable the Air Force to meet its local disbursing
needs. Each deputy DO balances their activity and prepares a Daily Statement of
Accountability (SOA) for the DO. Most Air Force collections and disbursements occur
by electronic funds transfer, Treasury check, and intra-governmental transfers. When
needed, Air Force DOs or deputy DOs may obtain cash by negotiating a U.S. Treasury
check at a commercial bank or with another DoD service branch disbursing office. They
require cash to conduct a variety of transactions related to normal operations, as well as
to supply special needs from time to time, including:
            • miscellaneous cash payments,
            • making change,
            • check-cashing,
            • local currency exchange in foreign countries,
            • payments to foreign vendors,
            • support of military banking facilities on foreign Air Force bases,
            • replenishment of automated teller machines, and
            • emergencies and contingencies.

In addition to disbursing officers, the Air Force uses agents, who are authorized to carry
out cash transactions for completing missions. These agents fill the positions of
disbursing agent, cashier, paying agent, imprest fund custodian, change fund custodian,
and collection agent. Appendix D provides a detailed description of these positions.
Individuals in these positions generally receive cash from a DO or deputy DO but may
also receive Treasury checks made payable to themselves that they cash for funds to
complete their duties. Each of these positions has limited cash responsibilities and
reports all disbursement and collection activity to a DO or deputy DO.




                                             1
Disbursing officers are responsible for determining their own cash requirements. They
consider their disbursing and cash accommodation needs, as well as those of the other
accountable individuals for whom they have accountability. Maintaining cash on hand at
a minimum commensurate with justifiable needs is mandatory. Semiannually, each
deputy DO submits a cash authority request for their accountable station. The DO
consolidates these requests into an overall cash authority request for the DSSN. DOs,
deputy DOs, and other accountable individuals have pecuniary responsibility for any
COMA they hold.

The COMA transaction activity for each DO, deputy DO, and their agents affects their
accountability balances. DOs and deputy DOs report COMA, which includes cash on
hand, funds outstanding with agents, cash in transit, foreign currency on hand, limited
depository account balances, custody or contingency cash, undeposited collections,
dishonored checks, deferred vouchers, and losses of funds. As of September 30, 2007,
the Air Force Balance Sheet reported COMA of $107.9 million, held at 81 accountable
stations.

The Federal Managers’ Financial Integrity Act of 1982 establishes overall requirements
for internal control and requires management to design and maintain effective internal
controls. Effective internal controls provide assurance that significant weaknesses in the
design or operation of internal controls that could adversely affect the agency’s ability to
meet its objectives would be prevented or detected in a timely manner. Well-designed
and operating internal controls ensure the effectiveness and efficiency of operations,
reliability of financial reporting, and compliance with applicable laws and regulations.
Each of these objectives encompasses the need to safeguard assets.




                                             2
Finding A. Internal Controls for Reporting
the Japan Custody Account
Air Force and DFAS Denver finance and disbursing personnel did not prevent or detect a
misstatement of the Japan custody account balance and of the total accountability of the
responsible deputy disbursing officer. The responsible deputy disbursing officer
understated the Japan U.S. dollar custody account and, consequently, total accountability
by $9.8 million on the daily reporting form dated June 7, 2007. We informed the
disbursing officer at DFAS Denver of this weakness, and the disbursing officer took
immediate action to:

   •   provide training to the deputy disbursing officer to ensure that the deputy
       disbursing officer records account activity in a timely manner and reconciles the
       account daily, and

   •   improve existing monitoring controls to detect an incorrect account balance
       reported by the deputy disbursing officer.

Japan Custody Account Operations
The Department of Defense operates military bases throughout the world. It provides
contractor-operated military banking facilities on many bases to enable its personnel to
conduct financial transactions. DoD Regulation 7000.14-R, “DoD Financial
Management Regulation,” volume 05, chapter 12.0103, describes custody accounts as
“…arrangements approved by the Department of the Treasury whereby safety stocks of
U.S. currency on the books of overseas military central funding officers are held
physically in the government’s contractor-operated military banking facilities.”

The Air Force established a custody account with the military banking facility contractor
to provide the U.S. currency necessary to support the operations of military banking
facilities in the Pacific theater. A deputy DO is responsible for the activity of the Japan
Custody Account and reports its activity and balance on the SOA.

The military banking facility contractor e-mails daily activity statements of the Japan
custody account to the responsible deputy DO. The daily U.S. currency activity of the
bank affects the custody account balance. The deputy DO executes the appropriate
transaction to report the accountability increases or decreases and adjusts the Japan
custody account balance on the Daily SOA to report the new balance to the DO.




                                             3
Internal Control Environment
Office of Management and Budget (OMB) Circular A-123 states that management is
responsible for developing and maintaining a system of internal controls to achieve
effectiveness and efficiency of operations, reliability of financial reporting, and
compliance with applicable laws and regulations. This system is comprised of the
following elements:

            •   the control environment, defined as “the organizational structure and
                culture by management and employees to sustain organization support
                for effective internal controls;”

            •   control activities, defined as “policies, procedures and mechanisms in
                place to help ensure that agency objectives are met;” and

            •   monitoring, defined as “a process that assesses the quality of an
                organization’s internal control, evaluates the design and operation of
                controls on a timely basis and takes corrective actions as necessary.”

In an effective control environment, all personnel need to possess and maintain a level of
expertise that allows them to accomplish their assigned duties. OMB Circular A-123
acknowledges that management needs to identify appropriate knowledge and skills
needed for various jobs and provide these to the personnel through proper training and
counseling.

The Government Accountability Office published “Standards for Internal Control for the
Federal Government” in November 1999. It describes a wide range of control activities,
to include approvals, authorizations, verifications, reconciliations, and documentation of
controls and their operation. These types of controls should be common to all DoD
component finance and disbursing operations. Effective control activities ensure the
complete and accurate recording of transactions on a timely basis. OMB Circular A-123
requires management to develop and maintain monitoring duties. Monitoring should be
included in regular management activities and the actions personnel take in performing
their duties. Such activities include management reviews and approvals, analytical
procedures, comparisons of control totals, and account reconciliations.


Review of Internal Controls Over the Japan Custody
Account
The deputy DO misstated the balance of the U.S. dollar Japan custody account and,
consequently, the total accountability on the Daily SOA for June 7, 2007. Internal
controls for this account were not operating effectively. The DO at DFAS Denver did not
provide the responsible deputy DO with the prerequisite training to understand and
properly record the account’s activity. Specifically, the deputy DO did not receive
training to: (1) reconcile the custody account balance reported for accountability
purposes with the source records available and (2) recognize the importance of recording
account activity on a timely basis.

We attempted to verify the Japan custody account balance reported on the deputy DO’s
Daily SOA for June 7, 2007. That balance did not agree with the balance reported by the
military banking facility contract’s e-mail notifications for that day. The deputy DO did


                                            4
not prepare a daily reconciliation of these balances and had not prepared any prior daily
reconciliations. We partially reconciled the account by identifying daily increases and
decreases in the custody account balance prior to June 7, 2007, that had not been
recorded by the deputy DO. We reported the unreconciled difference in these balances to
the DO at DFAS Denver for resolution.


Client Actions
The DO took immediate action to reconcile the account and review the operations of the
responsible deputy DO in August 2007. The DO’s reconciliation identified additional
errors. Table 1 below provides details of the reconciliation of the custody account
balance.

                                           Table 1.
                Reconciliation of Japan Custody Account on June 7, 2007
                                                                     Amount
                            Description                           in thousands
        Balance reported by deputy DO on Daily SOA                         $ 13,369


        Prior daily activity not recorded by June 7, 2007
                  May 21, 2007                               $      289
                  May 22, 2007                                      807
                  May 23, 2007                                    2,110
                  May 25, 2007                                      382
                  May 29, 2007                                      804
                  May 30, 2007                                    2,976
                  June 1, 2007                                      363
                  June 5, 2007                                    1,042
                  June 6, 2007                                    2,606
               Subtotal                                          11,379


        Other errors found in August DFAS reconciliation         (1,588)
        Understatement of custody account balance                            9,791
        Correct custody account balance                                    $ 23,160



As shown in Table 1, the deputy DO understated the Japan custody account balance and
the deputy DO total accountability by $9.791 million on the June 7, 2007, Daily SOA.
This occurred because the deputy DO did not record account activity for the days shown
and, as of June 7, had not discovered the errors subsequently found in the reconciliation
completed by DFAS in August. The Air Force had prepared quarterly financial
statements as of June 30, 2007. The balance of COMA reported in the consolidated


                                               5
balance sheet at that date was understated by $7.6 million because of continuing errors in
unrecorded account activity and the other errors found in the DFAS reconciliation.
Although the DO took immediate action and properly reconciled the Japan custody
account, the DO could have prevented this misstatement by ensuring that the responsible
deputy DO received the appropriate training and by effectively monitoring the deputy DO
Daily SOA. Appropriate training should include written policies and procedures
regarding the custody account to provide guidance for the responsible deputy DO and an
appropriate continuing reference for each successive deputy DO. Training for the deputy
DO should emphasize the importance of recording the custody account activity on a
timely basis. Also, the DO could have detected the misstatement and corrected it sooner
by regularly comparing the balance reported by the responsible deputy DO and the
balance reported by the military banking facility contractor.

The DO took additional action subsequent to reconciling the account in August 2007.
The Chief of Treasury Operations (Chief) at DFAS Denver made site visits in November
2007 and January 2008 to provide instruction and training to the deputy DO responsible
for the Japan custody account. In addition, the Chief implemented written policies and
procedures related to the responsibility, accounting, and reporting for the custody
account. These written procedures help ensure proper reporting of the account and serve
as a reference for current and successive deputy DOs. Disbursing personnel at DFAS
Denver now perform a daily review of the custody account reporting and reconciliation
and receive copies of source documents to verify the reconciliation. Because the DO
took appropriate action to correct the misstatement of the Japan custody account and
implemented effective internal controls for its accounting and reporting, we are not
making a recommendation for this finding.




                                            6
Finding B. Financial Reporting of Cash and
Other Monetary Assets
The Air Force General Fund Consolidated Balance Sheet as of September 30, 2007
inappropriately included noncash items in the Cash and Other Monetary Assets (COMA)
line. Specifically, the balance sheet misclassified deferred charges, losses of funds and
receivables as COMA. The overstatement occurred because the applicable DFAS Denver
standard operating procedures instructed accountants to record the total amount of
disbursing officer accountability as COMA for financial statement reporting purposes.
These procedures were inaccurate, because the DoD Financial Management Regulation
(DoD FMR) does not specifically define COMA to exclude such items from disbursing
officer accountability. As of September 30, 2007, the Air Force overstated its General
Fund Balance Sheet by $6.4 million.

Reporting Air Force Cash and Other Monetary Assets
COMA is a line-item classification reported on the Air Force General Fund Balance
Sheet. Quarterly, accountants at DFAS Denver prepare Air Force financial statements
reporting the balance of disbursing officer accountability for this classification.

DFAS accountants use a journal voucher to post to the COMA line at the close of each
fiscal quarter. They use SOA submitted by disbursing officers to prepare these journal
vouchers. The “Total Disbursing Officer Accountability” line of the SOA includes such
items as “Cash on Deposit in Designated Depository,” “Losses of Funds,” and
“Receivables-Dishonored Checks.”

Losses of funds result from acts of nature, bank failure, and wrongful conduct such as
theft, robbery, and burglary. Accountability for dishonored checks falls within one of
three categories: checks accepted from base organizations that routinely collect funds
(commissary and housing, for example), checks accepted in satisfaction of a debt due the
United States, or checks received as accommodation-exchange transactions. Another
accountability item would be unresolved deficiencies in the account of a former DO that
are not classified as check-issue overdrafts or losses of funds.


Definition of Cash and Other Monetary Assets
According to the Statement of Federal Financial Accounting Standard No. 1,
“Accounting for Selected Assets and Liabilities,” March 30, 1993, cash, including
imprest funds, should be recognized as an asset. Cash is defined as:

       • coins, paper currency and readily negotiable instruments, such as money orders,
          checks, and bank drafts on hand or in transit for deposit;

       • amounts on demand deposit with banks or other financial institutions; and

       • foreign currencies, which for accounting purposes, should be translated into U.S.
          dollars at the exchange rate on the financial statement date.

Both the Office of Management and Budget guidance; and the DoD FMR follow the
Statement of Federal Financial Accounting Standards definition for COMA assets. In
addition, OMB Circular A-136, “Financial Reporting Requirements,” June 2007, defines


                                            7
other monetary assets as gold, special drawing rights, and U.S. Reserves in the
International Monetary Fund. The U.S. Treasury primarily uses this definition. In
addition, Circular A-136 also states that the components of COMA must be disclosed in
the notes to the financial statements. The DoD FMR, Volume 6b, Chapter 4, “Balance
Sheet,” January 2006, also provides specific instructions for preparing each balance sheet
line, including COMA.


Posting Cash on the Balance Sheet

The Air Force General Fund balance sheet inappropriately included noncash items in the
COMA line. As shown in Table 2, the balance sheet included such items as deferred
charges, losses of funds, and receivables. As of September 30, 2007, DFAS Denver
overstated COMA on the Air Force General Fund Consolidated Balance Sheet by $6.4
million dollars.

                                           Table 2.
                          Accountability Amounts as of Sept 30, 2007
                                                                    Overstated
                                                         Amount       Amount
                     Item Description                 in thousands in thousands
          Cash in Custody of Government Cashiers        $ 41,277
          Cash on Hand                                      30,186
          Custody Account Cash                              22,652
          Deferred Charges - Vouchered Items                 6,372     $   6,372
          Cash in Transit                                    5,009
          Cash in Designated Depository                      2,299
          Cash - Undeposited Collections                        68
          Losses of Funds                                       36           36
          Receivables - Dishonored Checks                        8            8
          Receivables - Check Overdrafts                         1            1
                  Total                                 $ 107,908      $   6,417


The overstated items in Table 2 do not meet the Federal Accounting Standards Advisory
Board definition of COMA as implemented by the DoD FMR. For example, the DoD
FMR states that “Receivables-Dishonored Checks” should be used to record any
dishonored checks that are to be retained in DO accountability. However, such funds do
not meet the definition of COMA because they are an account receivable from the issuer
of the check. Similarly, “Losses of Funds” represent physical losses of cash.
Additionally, “Deferred Charges-Vouchered Items” consists of paid vouchers not yet
entered into the accounting and disbursing systems. These funds are not in the
possession of the Air Force and should not be recorded on the balance sheet.

DFAS Denver accountants used inaccurate guidance for posting DO cash journal
vouchers to the Defense Departmental Reporting System. The DoD FMR states that DO


                                              8
cash from the SOA is included when posting to the COMA account balance. However,
DFAS Denver accountants incorrectly included noncash items such as deferred vouchers,
check overdraft receivables, dishonored checks receivable, and losses of funds from the
SOA when posting to the COMA account balance. The DoD FMR definition of COMA
does not specifically exclude these noncash items.


Recommendation
This report is one in a series leading up to an agency-level review of DoD Cash and
Other Monetary Assets reporting. Assets that are incorrectly classified as Cash and Other
Monetary Assets affect not only the reporting Component’s balance sheet, but also the
DoD balance sheet. We will make recommendations on this finding in the report,
“Internal Controls Over DoD Cash and Other Monetary Assets.”




                                           9
10
Finding C. Internal Controls to Minimize
Cash Held Outside of the U.S. Treasury
Cash and Other Monetary Assets held by Air Force deputy disbursing officers and other
accountable individuals was in excess of actual needs. Excess cash held outside of the
U.S. Treasury by Air Force deputy disbursing officers increases the inherent risk of
losses and results in unnecessary interest expenses to the U.S. Treasury. One Air Force
location held approximately $8 million of excess cash on hand without justification. The
Air Force could save the Treasury as much as $320,000 in annual borrowing costs by
reducing its level of excess cash. The Air Force should improve existing policies and
procedures to ensure that local comptrollers review and approve deputy disbursing officer
justifications to hold cash and allow the disbursing officer at DFAS Denver to disapprove
unjustified requests from deputy disbursing officers to hold excess cash balances.


Cash Held Outside of the U.S. Treasury by the Air Force
The Air Force accountability for cash held outside of the Treasury was $107.9 million, as
of September 30, 2007. It has been reducing this accountability annually, as shown in
Table 3.

                                         Table 3.
                 Total Accountability of Cash and Other Monetary Assets
  Fiscal Years                      2004              2005          2006           2007
  Amounts in thousands        $ 163,543       $     151,844   $   114,779    $   107,908
  Decrease since 2004                N/A             7.15%        29.82%         34.02%



It has reduced the cash needs of its deputy DOs during these years primarily by
increasing its use of a U.S. Treasury system, ITS.gov. The Treasury provides this system
and allows agreements between the Air Force and suitable payees, enabling Treasury to
transmit Air Force payments directly to banks worldwide. We commend the Air Force
for the significant reduction shown in Table 3. The Air Force can further reduce its
current level of cash held by improving its internal controls over the process of approving
cash authority for each deputy DO.

Cash Authority Request Process
The DO for DFAS Denver is responsible for disbursing operations at Air Force bases.
The DO appoints deputy DOs and entrusts funds for official use to their custody to carry
out daily operations. Deputy DOs maintain cash on hand to accommodate necessary cash
transactions. Although electronic funds transfer (EFT) and U.S. Treasury checks are the
preferred methods of payment, cash disbursements may be necessary when EFT is not
available, or when recipients are unable to negotiate U.S. Treasury checks. Cash may
also be necessary to provide paying agents the necessary funds for special missions, as
well as for contingency operations such as emergency alerts and deployments of Air
Force personnel.



                                            11
Semiannually, deputy DOs at Air Force bases submit a cash authority request (CAR)
memorandum to the DO at DFAS Denver for approval. The approved request establishes
the maximum amount of cash authority for each deputy DO. The DO, as approving
authority, is responsible for ensuring that the CAR amount is within the guidelines set
forth in the DoD FMR and that management controls exist to ensure management makes
routine reviews of cash requirements.

Guidance for Cash Authority Requests
The DoD FMR, volume 5, chapter 3, section 030101.C states that electronic fund
transfers and U.S. Treasury checks are the preferred methods of payment. Section
030103 states that when cash transactions are necessary, cash on hand must be the
minimum necessary to meet normal requirements and that the approving authority must
review each request to ensure that it is in line with total nonpayroll requirements.

The DoD FMR, volume 5, chapter 3, section 030104, excludes amounts held by
authorized imprest fund cashiers and authorized change fund custodians from the CAR.
Imprest funds and change funds receive separate approval. In addition, this section
requires that CARs include a description of the payments and transactions requiring the
use of cash, as well as a breakdown of cash held, by accountable position.

The DFAS Denver DO provides deputy DOs with a memorandum, “Summarization of
DO/DDO Cash Authority Requests,” along with instructions for completing CARs. This
guidance instructs deputy DOs to use historical data from any consecutive 3-month
period of the previous 6 months to determine the maximum amount of operating cash that
deputy DOs may hold. It also requires that deputy DOs completely explain and justify
cash requirements identified as “Other” on the CARs.


Review of Internal Controls Over Cash Authority
Requests

CARs are a key control by which a DO can reduce the inherent risk of holding cash and
reduce the interest expense of the Treasury. The current internal controls over Air Force
deputy DO CARs can be strengthened to improve this key control. We reviewed CARs
submitted by 24 deputy DOs for approval by the DO at DFAS Denver for the semiannual
periods effective April 1, 2007; October 1, 2006; and April 1, 2006. Of the 24 CARs
reviewed, 1 deputy DO did not request to hold cash and was not included in the analysis.

Deputy DOs at 13 of 23 sites produced a CAR requesting the identical total cash
authority as the previous CAR submitted. CARs submitted by 6 of 23 deputy DOs were
identical for all 3 semiannual periods reviewed. When deputy DOs just duplicate the data
from previous CARs, they may not have evaluated their cash needs properly. Requests
using improper data from prior periods may result in too little or too much cash held.

CARs submitted by 4 of 23 deputy DOs did not comply with the DoD FMR and included
amounts for imprest fund, and change fund activities. There is a separate approval
process for imprest and change funds, and they should not be included in deputy DO
authority requests.




                                           12
The CARs submitted by 14 of 23 deputy DOs did not comply with guidance provided by
the DO at DFAS Denver because they did not use historical data from a consecutive
3-month period within the previous 6 months to compute their operating cash
requirements. Each of the deputy DOs used incorrect historical data for at least one of
the periods reviewed. Two deputy DOs submitted CARs with incorrect historical data for
two consecutive periods, and three deputy DOs provided incorrect historical data for all
three periods reviewed.

Deputy DOs requested cash authority of approximately $112 million for the semiannual
period effective April 1, 2007. As part of this total, they requested authority for
approximately $108 million for needs classified as “Other”. “Other” needs are not
associated with the daily cash operations of an Air Force disbursing office. The CARs
submitted by all deputy DOs did not provide any documentation supporting the Other
amounts requested.* In some cases, the deputy DOs provided short narrative descriptions
for the Other amounts, such as:
        • “contingencies,”
        • “alerts and deployments (paying agents),”
        • “natural disaster relief,”
        • “limited depository accounts,”
        • “disbursing agent operations.”

We requested documentation for the Other amounts from all of the deputy DOs during
our site visits. They did not provide any analyses, worksheets, or other documents
beyond the CAR descriptions to support the Other amounts requested. The deputy DOs
generally carried forward the amounts from prior CARs. As an example, at one Air
Force base, an “Other” request for $8 million had been carried forward since 2002. The
contingency operation for which a deputy DO made the original request expired in 2003.
In response to our request for documentation, the current deputy DO concluded that the
related cash on hand was excess. The deputy DO will potentially save the U.S. Treasury
$320,000 annually in unnecessary interest expense by returning this excess cash on hand
to the Treasury.†

Improving Cash Authority Requests
Cash Authority Requests are an important internal control to prevent excess cash on hand
yet enable deputy DOs to hold cash necessary for Air Force base disbursing operations.
CARs reduce the inherent risk in holding excess cash and reduce the unnecessary interest
expense incurred by the Treasury. Deputy DOs submitted CARs to the DO at DFAS
Denver that did not comply with written guidance provided by the DO. Deputy DOs did
not completely explain and justify requests to hold large sums of cash for purposes
described as “Other,” which comprised more than 95 percent of the total authority
requested in the CARs. Deputy DOs should be able to provide a complete justification
and analysis of current operations to support the necessary amounts of cash kept on hand.
Air Force base comptrollers can provide operating and other information for determining
reasonable cash on hand needs. Their review and approval of cash authority requests
prior to submitting them to an approving DO would increase the effectiveness of the
CAR process.


*
  One deputy DO did not request funds for the Other category, and one deputy DO was reviewed for a
classified Imprest Fund only.
†
  Based on U.S. Treasury borrowing rate.


                                                  13
An improved control environment would emphasize the importance of maintaining cash
on hand at the minimum amount necessary for efficient operations. Stronger monitoring
controls would improve Deputy DO compliance in preparing CARs and determining their
necessary cash needs.


Recommendations, Client Comments, and Our
Response
C.1. We recommend that the Assistant Secretary of the Air Force (Financial
Management and Comptroller) improve compliance with existing policies and procedures
to:

       a. Emphasize the importance of minimizing cash balances held by deputy
disbursing officers and other accountable individuals.

Management Comments Required. The Assistant Secretary of the Air Force (Financial
Management and Comptroller) did not comment on the recommendation. We request
that the Assistant Secretary of the Air Force (Financial Management and Comptroller)
provide comments in response to the final report.

        b. Require Air Force comptrollers to review and approve all semiannual cash
authority requests for accuracy, supporting documentation, and relevance to current
mission requirements prior to deputy disbursing officers submitting them for approval.

Management Comments Required. The Assistant Secretary of the Air Force (Financial
Management and Comptroller) did not comment on the recommendation. We request
that the Assistant Secretary of the Air Force (Financial Management and Comptroller)
provide comments in response to the final report.

C.2. We recommend that the disbursing officer at Defense Finance Accounting
Service Denver:

       a. Disapprove cash authority requests that do not include current
supporting documentation and calculations for each amount requested to reduce
excess cash held by deputy disbursing officers.

Management Comments. Defense Finance and Accounting Service Denver concurred
with the recommendation. The Director stated cash authorities were reviewed by the
Disbursing Officer to ensure that correct documentation and calculations were used by
deputy disbursing officers. The Director further stated that instructions were sent with
each approved cash authorization to ensure cash was not held on hand until actually
needed.

Audit Response. Management comments are fully responsive. We commend Defense
Financial Accounting Service Denver for the exceptional response to the
recommendation to reduce excess cash held by deputy disbursing officers. As a result of
management’s actions, instructions for cash authority requests clearly state that such
requests will be disapproved without complete and appropriate documentation. Current
requests are reviewed for adequate documentation and calculations to ensure cash on
hand does not exceed actual need.


                                           14
       b. Update disbursing officer guidance to provide detailed instructions
incorporating the written policies and procedures issued by the Assistant Secretary
of the Air Force (Financial Management and Comptroller) in response to
Recommendation C.1. above.

Managements Comments. Defense Finance and Accounting Service Denver concurred
with the recommendation. The Director stated that the Disbursing Officer guidance to
deputy disbursing officers has been revised.

Audit Response. Management comments are fully responsive. We commend Defense
Financial Accounting Service Denver for the timely response to the recommendation by
updating the Disbursing Officer guidance provided to the deputy disbursing officers. The
new guidance should strengthen internal controls over the semiannual cash authority
requests and help ensure that cash on hand is justified.




                                          15
16
Appendix A. Scope and Methodology
We conducted this financial audit from March 2007 through March 2008 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

The objective of the audit was to determine whether internal controls for Air Force
General Fund Cash and Other Monetary Assets are effectively designed and operating to
adequately safeguard, account for, and report Cash and Other Monetary Assets. The Air
Force General Fund FY 2007 Financial Statements reported Cash and Other Monetary
Assets of $107.9 million, based on the reports of two disbursing officers (DO)
responsible for four Treasury checking accounts. The DO at DFAS Denver is
accountable for $106.9 million (99 percent) of this amount.

We obtained a listing of all accountable stations reporting to the DO at DFAS Denver on
February 28, 2007. We identified 81 accountable stations reporting COMA balances.
We sorted these to separate Continental Unites States (CONUS) and Outside the
Continental United States (OCONUS) locations and ranked their reported balances from
largest to smallest. We assessed the accountable stations with the largest reported
COMA balances to determine who represented the highest risk for cash held outside of
the Treasury. We compared their COMA balances with those reported in prior periods to
verify their continuing significance. We also reviewed prior audit coverage and
identified accountable stations with previously reported control deficiencies. We
judgmentally selected 12 CONUS and 12 OCONUS accountable stations for audit field
work. The stations selected reported COMA balances of $98.2 million (98 percent of the
February 28, 2007 total).

We visited each of the accountable stations selected above to review their internal
controls. We made visits to the CONUS accountable stations in March and April 2007.
We made visits to the OCONUS accountable stations in June and July 2007. We
performed a verification of Cash and Other Monetary Assets for one day of
accountability during our visit. We reviewed compliance with DoD FMR requirements
for each accountable individual at each station visited and for each classification of Cash
and Other Monetary Assets reported on DD Form 2657 Daily Statement of
Accountability. These requirements included physical security for the assets, procedures
for agents, procedures and documentation for appointment of deputy DOs and agents,
authorization and amount of cash and other monetary assets held, limited depository
accounts, imprest funds, and foreign currency accounting. We performed our review by
interviewing accountable individuals, examining internal control documentation,
performing walk-throughs of operating procedures, and examining various documents to
determine whether internal controls were in effect.

The scope of our audit was limited because we did not physically verify Cash and Other
Monetary Assets held by paying agents in remote locations. The deputy DOs at the
accountable stations we visited report the amounts advanced to paying agents on their
Daily Statement of Accountability. These agents support Air Force mission assignments
throughout the world in locations where regular banking or other finance facilities are not
available. Deputy DOs reported having $41 million in the hands of paying agents as of
September 30, 2007, including $37 million with agents in the Southwest Asia area of
operations.

                                            17
Review of Internal Controls
We identified internal control weaknesses that we consider to be material. DoD
Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” January 4,
2006, states that a material weakness is a reportable condition that the head of the DoD
Component determines to be significant enough to be reported to the next level of
management. Internal controls are the organization, policies, and procedures that help
program and financial managers achieve results and safeguard the integrity of their
programs. The physical controls for safeguarding Cash and Other Monetary Assets were
effective. Additionally, Air Force financial managers and Defense Finance and
Accounting Service personnel have designed effective internal controls and are in
substantial compliance with the DoD Financial Management Regulation. However, Air
Force can make improvements in operating compliance with certain controls over
COMA. The control weaknesses identified and our recommendations for improvements
are discussed in the Finding sections. Our recommendations, if implemented, will
improve internal controls over accounting for and reporting Air Force General Fund Cash
and Other Monetary Assets on the balance sheet.

Use of Computer-Processed Data
We did not test the general and application controls for computer systems used at
accountable stations to determine the validity of the related computer-processed data.
We relied on the output data from those systems (where applicable) in verifying the
operation of certain internal controls. Nothing came to our attention as a result of our
procedures that caused us to doubt the reliability of the computer-processed data.

Use of Technical Assistance
Personnel from the Quantitative Methods Directorate, Office of the Deputy Inspector
General for Policy and Oversight assisted in the process of selecting accountable stations
for review.




                                            18
Appendix B. Prior Coverage
During the last 5 years, the Department of Defense Inspector General (DoD IG) and the
Air Force Audit Agency (AFAA) have issued 15 reports discussing internal controls for
Air Force General Fund Cash and other Monetary Assets. Unrestricted DoD IG reports
can be accessed at www.dodig.mil/audit/reports. Unrestricted Air Force Audit Agency
reports can be accessed at www.afaa.hq.af.mil/afck/plansreports/reports.shtml.

DoD IG
DOD IG Report No. D-2007-064, “Implementation of the Commanders’ Emergency
Response Program in Afghanistan,” February 28, 2007

DOD IG Report No. D-2007-028. “Controls Over Army Cash and Other Monetary
Assets,” November 24, 2006


Air Force Audit Agency
AFAA Audit Report No. F2006-0006-FD3000, “Central Command Air Forces Deployed
Locations Cash Management,” August 3, 2006

AFAA Installation Report of Audit No. F2006-0043-FDE000, “Cash Holding Authority
435th Air Base Wing, Ramstein AB Germany,” June 19, 2006

AFAA Installation Report of Audit No. F2006-0041-FDE000, “Cash Management 376th
Air Expeditionary Wing, Manas AB, Kyrgyzstan,” May 31, 2006

AFAA Installation Report of Audit No. F2006-0038-FDE000, “Cash Management 332nd
Air Expeditionary Wing, Balad AB, Iraq,” May 23, 2006

AFAA Installation Report of Audit No. F2006-0035-FDE000, “Cash Management 407th
Air Expeditionary Group, Ali Air Base, Iraq,” April 24, 2006

AFAA Installation Report of Audit No. F2006-0036-FDE000, “Cash Management 447th
Air Expeditionary Group, Baghdad International Airport, Iraq,” April 23, 2006

AFAA Installation Report of Audit No. F2006-0034-FDE000, “Cash Management 379th
Air Expeditionary Wing, Al Udeid AB, Qatar,” April 17, 2006

AFAA Installation Report of Audit No. F2006-0028-FDE000, “Cash Management 386th
Air Expeditionary Wing, Ali Al Salem AB, Kuwait,” March 9, 2006

AFAA Installation Report of Audit No. F2005-0034-FDE000, “Cash Operations and
Accountability 39th Air Base Wing, Incirlik AB, Turkey,” March 8, 2005

AFAA Installation Report of Audit No. F2005-0014-FBP000, “Air Force General Fund
Cash and Other Monetary Assets 18th Wing, Kadena AB Japan,” February 15, 2005

AFAA Installation Report of Audit No. F2004-0063-FDE000, “General Fund Cash and
Other Monetary Assets 435th Air Base Wing Ramstein AB, Germany,” July 12, 2004




                                         19
AFAA Installation Report of Audit No. F2004-0056-FBN000, “Air Force General Fund
Cash and Other Monetary Assets, 92d Air Refueling Wing, Fairchild AFB WA,” June 7,
2004

AFAA Audit Report No. F2002-0007-B05400, “Follow-up Audit, Controls Over Air
Force Cash,” June 20, 2002




                                        20
Appendix C. Cash and Other Monetary
Assets Operating Procedures
The Air Force reported Cash and Other Monetary Assets of $107.9 million in its General
Fund Balance Sheet as of September 30, 2007. The Department of Defense Financial
Management Regulation 7000.14-R, Volume 6B, Chapter 4, defines this financial
statement classification. Cash consists of coins, paper currency, and readily negotiable
instruments, such as money orders, checks, and bank drafts on hand or in transit for
deposit. Cash also consists of amounts on demand deposit with banks or other financial
institutions and foreign currencies translated into U. S. dollars at the exchange rate on the
financial statement date. The Other Monetary Assets classification includes gold, special
drawing rights, and U.S. Reserves in the International Monetary Fund.

Disbursing officers (DO) in the Department of Defense are authorized in 31 United States
Code 3321 to disburse public money available for expenditure by the agency. The
Treasury assigns appointed DOs checking accounts to perform disbursing functions.
DOs appoint deputy DOs as appropriate to support the disbursing activity at each Air
Force location. Disbursing officers obtain cash for use in their official duties by cashing
a Treasury check drawn on their Treasury checking accounts. They use cash for:

           •    miscellaneous cash payments,
           •    making change,
           •    check-cashing,
           •    local currency exchange in foreign countries,
           •    payments to vendors in foreign currency,
           •    support of military banking facilities on foreign Air Force bases,
           •    replenishment of automated teller machines, and
           •    Emergencies and contingencies.

In addition to disbursing officers, the Air Force uses accountable individuals to carry out
cash transactions in completing its mission. Accountable individuals may fill the
positions of disbursing agent, cashier, paying agent, custodians of imprest and change
funds, and collection agent. The Glossary of Terms in Appendix D provides a detailed
description of these accountable positions. DOs and deputy DOs generally provide funds
to these individuals. They may also issue Treasury checks payable to these individuals to
cash for funds to complete their duties. Each of these positions has limited cash
responsibilities and reports its activity to a DO or deputy DO. Each business day,
disbursing officers and deputy disbursing officers report their accountability on a Daily
Statement of Accountability (DD 2657). They must balance the two parts within the DD
2657 daily and each deputy DO must provide the form to their respective DO. The first
part of the form reports a continuing balance of accountability by beginning with the
balance from the immediately preceding report, listing all disbursement and collection
activity for the current day, and calculating the ending balance of accountability. The
second part of the form lists detail line items of accountability. Their total must agree
with the ending balance of accountability in the first part of the form. These line items
include:
            • Line 6.10 Cash on Deposit in Designated Depository,
            • Line 6.20 Cash on Hand,
            • Line 6.30 Cash – Undeposited Collections,
            • Line 6.40 Custody or Contingency Cash,


                                             21
           •   Line 6.50 Cash in Custody of Government Cashiers (and paying agents),
           •   Line 6.70 Cash in Transit,
           •   Line 7.10 Deferred Changes – Vouchered items,
           •   Line 7.30 Losses of Funds,
           •   Line 7.40 Receivables – Dishonored Checks.

Disbursing officers and deputy disbursing officers are required to verify the amount for
each detail line item by performing a physical count of cash and examining the
supporting documentation for cash not in their possession (for example, cash in the
custody of paying agents) and for each noncash item. DOs are responsible for the
internal controls for physical safekeeping, processing, and reporting for each item of
Cash and Other Monetary Assets included in their accountability. Disbursing officers
and their agents have pecuniary responsibility for the cash and other monetary assets for
which they are accountable. Each DO combines all month-end DD 2657 forms for each
of their Treasury checking accounts and completes an SF 1219 Statement of
Accountability. DFAS Denver accountants combine the monthly SF 1219 totals and
prepare the Treasury Consolidated Statement of Accountability Report. They use these
totals in the quarterly process to report the Cash and Other Monetary Assets line item in
the Air Force General Funds Consolidated Balance Sheet.

An approving official grants authority to DOs to hold cash and other monetary assets.
DOs determine their cash requirements for disbursing and cash-accommodation needs,
including those of deputy DOs and other accountable individuals for which they have
accountability. The deputy DO at each accountable station provides the DO at DFAS
Denver a request for cash authority semiannually to support the DO’s cash authority
request to the Director at DFAS Denver. They submit a cash authority request (CAR)
memorandum for approval. The memorandum includes a description of the safekeeping
facilities for the cash requested, the estimated time for cash replenishment from the
nearest source, and the current cash authority for the accountable station. The deputy DO
provides historical cash requirement information for three consecutive months during the
prior six months. These historical cash requirements are Average Daily Operating Cash
(excluding military paydays), Average Payday Operating Cash, Average Daily
Accommodation Cash (excluding military paydays), and Average Payday
Accommodation Cash. The deputy DO requests itemized cash authority for Operating
Cash, Accommodation Exchange Cash, Payday Operating Cash, Payday Accommodation
Cash, Cash Held for Delivery to Other DOs/deputy DOs, and Other. The DO ensures
that the CAR amount is within the guidelines set forth in the FMR and that local
management makes routine reviews of cash requirements. Deputy DOs should not
maintain cash on hand in excess of their cash authority.




                                           22
Appendix D. Glossary of Terms
Accommodation Exchange or Service. The exchange of U.S. Treasury checks or U.S.
dollar instruments for U.S. dollars. Also, the exchange of U.S. dollars or dollar
instruments for foreign currency for the convenience of authorized personnel, or, where
permitted, the exchange of foreign currencies for U.S. dollars or dollar instruments.

Accountable Individual. A person, whether military or civilian, who is appointed to
collect or disburse funds (or in some cases, to cause the disbursement of funds).
Accountable individuals may include disbursing officers, deputy disbursing officers,
agents, cashiers, and other employees who by virtue of their employment are responsible
for or have custody of government funds. Accountable individuals have pecuniary
liability for the funds for which they are responsible.

Agent (of a Disbursing Officer). An individual who is acting under a formal letter of
appointment from a disbursing officer. Agents are not authorized to sign U. S. Treasury
checks. The duties of an agent usually consist of making cash payments and collections,
performing check-cashing services, and preparation of financial documents.

Cashier. A cashier can be a military member or DoD civilian employee designated by
the disbursing officer to perform duties involving the handling of public funds. The
recruitment, screening, and selection of persons for cashier positions should be
accomplished with primary regard to the sensitive nature of the position.

Change Fund Custodian. A change fund custodian operates from an appropriated fund
sales activity (for example dining hall, hospital, and commissary) and is responsible for
safeguarding the funds provided. A change fund custodian may be held pecuniary liable
for any loss of the change fund.

Coin. Metallic form of cash representing either U.S. dollars and foreign currency units,
fractional amounts, or multiples thereof.

Collection Agent. An individual who has been designated to perform duties relating to
the collection of official funds, including funds held as safekeeping deposits, at a point
other than a disbursing office. The individual designated as a collection agent must
perform the collection duties under the general supervision of and as prescribed by the
appointing officer. A collection agent is appointed by the local commander.

Collections. All acquisitions of U.S. and foreign currencies, except those acquired by the
United States through purchase with dollars or accommodation exchange transactions.
Contingency. As designated by the Chairman, Joint Chiefs of Staff, an emergency
involving military force caused by natural disasters, terrorists, subversions, or by required
military operations. Due to the uncertainty of the situation, contingencies require plans,
rapid response, and special procedures to ensure the safety and readiness of personnel,
installations, and equipment.

Currency. Paper money in the form of U.S. dollars and foreign banknotes.




                                            23
DD 2657, “Daily Statement of Accountability.” A DoD standard form used by
Disbursing Officers and Deputy Disbursing Officers to report their daily accountability
for cash held outside of the U.S. Treasury. This form provides an accounting of
beginning accountability, daily activity, and ending accountability. It also provides a
listing of all amounts held by the DO or deputy DO that comprise their total
accountability, including all cash and non cash items.

Deputy Disbursing Officer. An individual appointed by the disbursing officer to act in
the name of and for that disbursing officer to perform any and all acts relating to the
receipt, disbursement, custody, and accounting for public funds. The disbursing officer
making the appointment may restrict the acts a deputy is authorized to perform. All
deputy disbursing officer appointees must be U.S. citizens.

Disbursing Agent. An agent of a disbursing officer that has not been appointed as a
deputy disbursing officer. Generally, a disbursing agent operates a permanently located
disbursing office of considerable size that is geographically separated from the disbursing
officer's office; however the use of disbursing agents is not restricted to geographic
separation from the DO.

Disbursing Office. An office whose principal function consists of the disbursement,
collection and reporting of public funds. The term “disbursing office” includes both
tactical and nontactical disbursing activities. Each disbursing office will have a
disbursing officer and should have at least one deputy position which is under the direct
cognizance and control of the disbursing officer. Disbursing offices within DoD
formerly were referred to as Finance and Accounting Offices, Accounting and Finance
Offices, and Finance Offices.

Disbursing Officer (DO). A military member or a civilian employee of a DoD
Component designated to disburse monies and render accounts according to laws and
regulations governing the disbursement of public monies. All DO appointees must be
U.S. citizens.

Exchange-for-Cash Check. A check issued by a disbursing officer to obtain cash funds
for disbursements or in exchange for cash for official or accommodation purposes.
Imprest Fund. A cash fund of a fixed amount established by an advance of funds, with
or without charge to an appropriation, from a disbursing officer to a duly appointed
cashier, for disbursement as needed in making cash payments for relatively small
purchases.
Limited Depository Account. A checking account in a foreign currency maintained in a
limited depository by a disbursing officer. Limited depository accounts also may be
referred to as operating accounts.

Paying Agent. A military member or DoD civilian employee appointed by the
commander to make specific payments, currency conversions, or check-cashing
transactions from funds temporarily advanced to the agent by the disbursing officer.
Paying agents are individuals whose regular duties do not involve disbursing functions
and who are not organizationally located in the disbursing office. They are appointed to
the position of paying agent as a collateral duty and are under the exclusive supervision
of the disbursing officer in all matters concerning custody and disposition of funds
advanced to them. Funds advanced to a paying agent are held at personal risk by the
paying agent and must be accounted for to the disbursing officer immediately upon
completion of the duties for which advanced.

                                            24
SF (Standard Form) 1219, “Statement of Accountability.” Each DoD disbursing
station is required to prepare the Statement of Accountability monthly. The Statement of
Accountability reports information to the Treasury on deposits, interagency transfers, and
checks issued. The Statement of Accountability also reports net disbursements—the sum
of the deposits, interagency transfers, and checks issued that month.




                                           25
26
Defense Finance and Accounting Service Comments




                  Click to add JPEG file




                                 27
                           Final Report
                            Reference




Click to add JPEG file
                         The updated
                         guidance was
                         omitted from this
                         report




               28
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed below.

Patricia A. Marsh
Amy J. Frontz
Douglas P. Neville
M. James Herbic
Ben J. Meade
Joseph M. Calise
Jacob R. Newell
Christopher S. Yablonski
E. Ellen Kleiman-Redden
